U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

December 12, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Edwin Arthur Avery v. United States of America,
S.Ct. No. 19-633

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November
15, 2019, and placed on the docket on November 15, 2019. The government's response is due
on December 16, 2019.
We respectftilly request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 15, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0633
AVERY, EDWIN ARTHUR
USA

CATHERINE M.A. CARROLL
WILMER CUTLER PICKERING HALE & DORR
LLP
1875 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20006
202-663-6000
THOMAS G. SPRANKLING
WILMER CUTLER PICKERING HALE & DORR
LLP
950 PAGE MILL ROAD
PALO ALTO, CA 94034
650-868-6000
THOMAS. SPRANTKLING@ WILMERHALE. COM

